wV.*

*

- A

\

r'

^

f—i

r ■’

No.

ri

20-1181

IN THE
SUPREME COURT OF THE UNITED STATES

oiy-or '
p.

i, U.S.
’

'

!

L_

Keinald v.Parnell

— PETITIONER

(Your Name)
vs.

Scott R.Frakes

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States court of Appeals for the Eighth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Keinald v. Parnell
(Your Name)
2725 N.hwy 50,p.o.Box 900
(Address)
Tecu s eh,NE.68450
(City, State, Zip Code)
402 335-5998
(Phone Number)

RECEIVED
OCT -7 2020

. i

1 .

QUESTION(S) PRESENTED

Defendant contend? that he i? being held on what
what contend? to be a void judgement redured during a
jury trial where the main witne?? who wa? al?o the
victim in thi? matter wa? impeached during trial in
exce?? of eleven time?
Did the Eighth circuit court of Appeal? Err when denying
a certificate of Appealability in thi? matter? No:20-1181
Did the United State? court of Appeal? omaha,Nebra?ka
Err when denying a petition for Habea? corpu? Relief
28uu.?.c.2254 ca?e
No:CR 15-1671
u.?.con?t.amend.6 ineffective a??i?tance of coun?el
Did the dougla? county di?trict court err when denying a
verified petition for Po?t-conviction relief without an
evidetiary hearing in ca?e No:cr 15-1671
Did the doudla? county di?trict court err when denying a
verified petition for Po?t-Conviction relief without an
evidentiary hearing on parnell claim of Pro?ecutorial mi?conduct
Did the Dougla?
county Di?trict court err when denying a
*
verified petition for Po?t-Conviction relief without an
evidentiary hearing on the claim of INSUFFICIENT EVIDENCE
ACTUAL INNOCENCE:Did the dougla? county di?trict court err
when denying a verified petition for POST-CONVICTION relief
without an evidentiary hearing on thi? claim
Did THe NEBRASKA COURT OF APPEALS ERR when denying defendant?
claim? of INEFFECTIVE ASSISTANCE OT1'TRIAL AND APPELLANT
COUNSEL ,INSUFFICIENT EVIDENCE,PROSECUTORIAL MISCONDUCT
JUDICIAL BIAS AND ACTUAL INNOCENCE

(i)

(,

LIST OF PARTIES

fx ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
j UsS1... v;. j enkihf .849 f.. 3d . 390
0.54 vOBw-is 13% ;S
5319
U.S^ttareus- 130: Sict. 2159
IK-S1'.VVWe-riser-1 934s f.34' 375
‘' IT.S. v: Bag!
1-05, s', ct.3375
l;
U'.-S-'. OvDiibni g-a n 113i s .-c-tOlSL 11
~ US. V:. viFiM-£airrs337IS. cs;.-c’t:-.5>95
1 job-iTson- • v. U. S: 135 sv cfej 2551
I !

i

(ii)

/

(.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3,4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

6,7,8
10

CONCLUSION

INDEX TO APPENDICES

APPENDIX A

DEcision of United States court of Appeals for
the Eighth Circuit

APPENDIX B

Decision of United States District Court for
the District of Nebraska

APPENDIX C

Memorandum and opinion of Nebraska court of
Appeals

APPENDIX D
APPENDIX E
APPENDIX F

(iii)

m

wm

11

TABLE OF AUTHORITIES CITED
CASES
U.S.V.Bagley 105 S.ct.3375
U.S.V.Dunnigan 113 S.ct.llll
U.S.V.Williams 71 S . ct.595
House V.Bell
-:;126 S. ct. 2064
U.S.V.Jenkins 849 F.3d.390
U.S.V.Davis 139 S.ct.2319 204,1.Ed.2d 757
U.S.V.Marcus 130 S.ct.2159

PAGE NUMBER
6
6,7
6
7
7
7
7

STATUTES AND RULES
6
8
8

Neb.Rev.Stat.§28-314
Neb.Rev.Stat.§28-507
Neb.Rev.Stat.§28-311.01 (1)(a)
Neb.Rev.Stat.§29-2221
Fed.R.Civ.P.32(a)(1)

4
4
3,5

56ue.f
/J e. ■Js.sj'. Ac

orhci. ~

OTHER
U.S.Const.Ame#d.4
U.S.Cons t.Amend.5
U.S.Cons t.Amend.6
U.S.Cons t.Amend.8
U.S.Cons t.Amend.14

(iiii)

I*

'X ,

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
MI For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__9__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

\

i .

JURISDICTION
H For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was Ai My, -m^ozcn^(>
' l

/

J

[ ] No petition for rehearing was timely filed in my case.
JKf A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: A l
X
()
and a copy of the
order denying rehearing appears at Appendix_____ _
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
----------- !--------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

i

t

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The foiling constitutional and Statutory provisions are
involved in this matter
U.S .const.amend.14
All persons born or naturalized in the united states,are subject
to the juristiction thereof ,are citizens of the united states
and the state wherein they reside no state shall make or
enforce any law which abride the priviledge or immunities of
citizens of the united states ;nor shall any state deprive
any person of life,liberty,or property,without DUE PROCESS of law
nor deny any person within its jurisdiction the equal
protection of the law
U. S.cons t.amend.5
it is unconstitutional to deprive a citizen of the united states
the right to be free without DUE PROCESS of law
U.S.const.amend.6
All persons of united states stature has the right to effective
assistance of counsel and the right to have an impartial
jury
U.S.cons t.amend.4
every united states citizen has a right to be free of illegal
searches and,seizures
U.S.const.amend.8
every united states citizen has a right to be free from
cruel and unusual punishment
28U.S.C.§2254
Every citizen of united states stature has a right to
petition the government for Habeas corpus relief from any
judgement rendered against the constitutional laws of
united states

3

f

l

II

CONSTITUTIONAL AND STATUTORY PROVISIONS CONTINUED
neb.rev.stat.§28-507 BURGLARY
neb.rev.stat.§28-311.01(1)(a) terroristic threats
neb.rev.stat.§28-314 false imprisonment in the first degree
neb.rev.stat.§29-2221 habitual criminal
f ed.r.civ.p.32(a) (1.)

4

{

{ ,

STATEMENT OF THE CASE
Defendant filed a petition for writ of Habeas corpus
Pursuant to 28 u.s.c.§2254 in the united states
District court for the district of nebraska june 3,2019
claiming that he is being held under a void
judgement rendered under perjured testimony during
a trial proceeding the states main witness who is
also the victim in the case impeached himself
the habeas petition claims were ruled cognizable
july 18,2019 in the united states district court
omaha nebraska with a respondent deadline of
August 19,2019 a memorandum and order denying
defendants habeas corpus petition was entered on
September 12,2019 defendant then filed for a
certificate of appealability to the united states
court of appeals for the eighth circuit on february 13,2020
the certificate of appealability and appeal were
denied and dismissed may 18,2020 a motion for an
extension of time to file for a rehearing was then
submitted to the eighth circuit court of appeals
june 5,2020 motion for extension of time for
rehearing was then granted until july 31,2020
the appeal and motion for rehearing was then denied
july 23,2020 and the mandate was then issued
july 30,2020

5

i

REASONS FOR GRANTING THE PETITION
The district court's denial of the petition for habeas corpus
relief warrant's this court's attention the case revolves
around a single witness who deemed himself unreliable when
committing perjury during trial under oath
U.S.v.Dunnigan 113 s.ct.llll in excess of eleven times
and the trial was allowed to continue even after this witness
was caught lying in open court in front of the jury U.S-v
U.S.v.Williams 71sS.ct.595 the majority of this witnesse's
testimony revolved around him saying that he was held at
gunpoint the entire time which brought the
false imprisonment charge into play neb.rev.stat.§28-314
which fall's under U.S.v.Bagley 105 s.ct.3375 the fact
that this witness lied multiple times under oath should
have been ground's for a mistrial or complete dismissal of
charges or ground's for a new trial i argued the
ineffective assistance of counsel after my direct appeal
because my trial counsel and appeal counsel were the same
so my first opportunity to bring it upa-was my post­
conviction which attorney general claimed it was procedually
barred because it wasn't brought up on direct which would
be inpossible because i had the same counsel through trial
and direct appeal there was insufficient evidence to
support a guilty verdict on remaining charges because the
testimony was he was held at gunpoint and was threatened
with a gun defendant was found not guilty of all weapons
charges wOyld

6

t .

REASONS FOR GRANTING PETITION CONTINUED
Which would make remaing charges void and the stateccould
not convict beyond a reasonable dought
U.S.v.Jenkins 849 f.3d 390
theudefendant has pled his innocence from the very
1;:'.
begining but has went on deaf ears till this point
U.S.v.Davis 139 s.ct.2319 ,U.S.v.Marcus 130 s.ct.2159
The fact still remains that defendant's fingerprint's Nor
his D.N.A. were even found on any weapon seaized during the
searches that were conducted House v.Bell 126 s.ct.2064
the fact is there was an additional search conducted eleven
day's after the saij incident at the request of the home
owner and a firearm was then recovered at which time eight
month's later they decided to charge the defendant with
firearm possession as well as use of a weapon to commit a
felony. U.S.const.Amend.4^5j8,14 trial counsel in this case
failed to file a motion to suppress this evidence which
should have never been allowed .U.S.const.Amedd.6
provides that a citizen of us stature be allowed the
effective assistance of counsel.The fact is the victim in
this case testified that he was held at gunpoint this was
his testimony in his deposition as well as trial
which in turn caused the false imprisonment in the first
degree neb.rev.stat.28-314 which made the use of a weapon
charge essential to legally convict for first degree
false imprisonment .neb.rev.stat.28-1205(l)(a)and(c)
the fact that defendant was found not guilty of this
should have rendered remaining charges void.
U.S.v.Dunnigan 113 s.ct.llll the defendant's claim's of
insufficient evidence,ineffective assistance of counsel,pro
prosecutorial misconduct,judicial bias and actual innocence
needed closer inspection .
<7-*

7

i,

REASONS FOR GRANTING THE PETITION CONTINUED
If counsel would have did any investigating into this matter
and spoken with the witnesses that defendant told her to speak
surely the outcome would have differed U.S.const.amend.6
defendant clearly shows that his right's have been
substancially violated: . and the charges of false imprisoment,
neb.rev.stat.§28-314,terrorisic threats neb.rev.stat.28-311.01
(1)(a)and burglary,neb.rev.stat.§28-507 should have never
been allowed to stand without the use of a weapon charge
neb.rev.stat.§28-1205(l)(a)and(c) because the victim in
this case testified that he was held at gunpoint the
entire time.
And wasn't aiiowed to move fromany one position the entire time
but was caught lying about that also and admitted to being able
to move around freely and that he was never frightened or scared
and that defedant's demeanor was calm
FACT"S: defendant was never in possession of a firearm nor
a knife upon his arrest defendant did not reside at the
residence in which he was arrested there two searches conducted
before defendant was taken to jail and during those two
initial searches there was never any weapon recovered or
found two day's later the victim called police and said
that he had found a knife eleven day's later they get
another phone call from victim and his mother saying that
they had two spots they wanted searched evetually aagun
was recovered in the basement drywall defendant was never in
the basement area and was arrested in the upstairs attic
eight months go by and they charge defendant with the firearm
that was found

8

i

i,

REASONS FOR GRANTING THE PETITION CONTINUED
Whithin the transcript of Domnic Frederick there wil be testimony
that he had multiple opportunities to leave when confronted
with the question when he was in the other room why didn't you
just run out the house long pause and then he say's oh i didn't
wanna get shot also mr Frederich admits to being high on
drugs and had several drinks also in fact him and defendant
wereadrinking beer's together during this said incident
and also admits he was never scared by defendant's presence
nor did he ever feel threatened the victim in this case
admits he was never touched or forcibly moved at any time which
you would have to have for Neb.rev.stat.§28-314
false imprisonment in the first degree Mr. Frederick also
admits that all his friend's have carry and conceal permits
and he had been drinking with one of his friends at his residence
and that his friend lance templeton could have left both door's
ajar when he left that morning . how was it ever considered
that defendant was ever in possession of afirearm? defendant
has had several firearm possession's in the past and during those
times defendant had to be in actual physical possession or
reside at the residence where it was recovered or guilty
knowledge of said fifearm fingerprint's or D.N.A there
was never any of that present in this case .
if the victim in this case was never frightened or scared in an£
way then how can you have a terroristic threat that never
actually happened?

9

for all the foregoing reasons defendant pray's that the
issues within this case aren't overlooked but closely
scrutinized that the lower court's allowed it to travel this
far and hopes and pray's that this writ will be granted.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Y)P.AC\Cl\W

f r\< ) |

Date:

An

10

